Judd E. Stone II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

October 13, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: James Garfield Broadnax v. Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division, No. 21-267
Dear Mr. Harris:
Under Supreme Court Rule 30.4, Respondent Bobby Lumpkin, Director, Texas
Department of Criminal Justice, Correctional Institutions Division, respectfully
moves for an extension of the time for ﬁling his response to the petition for a writ of
certiorari in this matter. This is Respondent’s second request for an extension.
This is a capital case. The response is currently due on October 25, 2021. The
response was originally due September 23, 2021. Respondent filed a motion to
extend that due date on September 13, which the Court granted. Respondent
requests a 28-day extension, creating a new ﬁling date of November 22, 2021. My
ofﬁce conferred with counsel for Petitioner on October 13, and Petitioner does not
oppose the requested extension.
The extension is needed because the undersigned counsel and other counsel
assisting with this matter have numerous brieﬁng and argument obligations,
including:

Pos t Of fic e B ox 125 48, Aus tin, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor n e yge ne r a l. gov

Scott S. Harris
October 13, 2021
Page 2
• Ramirez v. Collier, et al., No. 21-5592 in the Supreme Court of the United
States (response brief on the merits due October 15; oral argument set for
November 1);
• Fears v. Lumpkin, No. 20-40563 in the U.S. Court of Appeals for the Fifth
Circuit (appellee’s brief due November 8);
• Cook County, et al. v. Mayorkas, et al., No. 21-2561 in the U.S. Court of Appeals
for the Seventh Circuit (appellants’ brief due November 3);
• Grassroots Leadership, Inc., et al. v. Masters, et al., No. 19-0092 in the Supreme
Court of Texas (response brief on the merits due November 1);
• Wardrip v. Lumpkin, No. 21-5226 in the Supreme Court of the United States
(brief in opposition due October 27);
• Luna v. Lumpkin, No. 21-5460 in the Supreme Court of the United States
(brief in opposition due October 24);
• Oklahoma v. Castro-Huerta, No. 21-429, in the Supreme Court of the United
States (amicus brief due October 21);
• Texas Telephone Association, et al. v. Public Utility Commission of Texas, et al.,
No. 03-21-00294-CV (appellees’ brief due October 21);
• In re McGowan, No. 12-21-00086-CV in the Texas Court of Appeals for the
Twelfth Judicial District (oral argument set for October 19);
For the foregoing reasons, Respondent respectfully requests a 28-day extension
of the deadline for ﬁling a response to the petition for a writ of certiorari, creating a
new deadline of November 22, 2021.

Pos t Of fic e B ox 125 48, Aus tin, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor n e yge ne r a l. gov

Scott S. Harris
October 13, 2021
Page 3
Sincerely,
/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov
cc:

Stephen Craig Herzog (Counsel for Petitioner)

Pos t Of fic e B ox 125 48, Aus tin, Te xa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. te xa s a t tor n e yge ne r a l. gov

